           Office of Inspector General




April 21, 2004

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service’s Postal Police Officers
         (Report Number SA-AR-04-001)

This report presents results of our audit of the Postal Inspection Service’s Postal Police
Officers (Project Number 03BN009SA000). We initiated this audit in response to a
request by members of Congress to review the Postal Service’s decision to eliminate
postal police officers at six Postal Service facilities.

The Postal Inspection Service used several methodologies to support its decision to
eliminate postal police officers at the six facilities. These methodologies included
studies and analyses; professional judgment based on interviews with local police,
Postal Service managers, the Postal Inspection Service, and security force managers;
and recommendations from the most recent Security Force Assessment Survey.
However, the studies and surveys gave contrasting opinions on whether to maintain a
postal police presence at the six facilities. Also, the Security Force Assessment Survey
is over 18 years old and no documentation was available to assess the validity of its
methodology.

Therefore, we recommended that the Postal Inspection Service update, document, and
validate the methodology used for conducting Security Force Assessment Surveys or
use an alternative process that can be validated and documented to evaluate the
presence of postal police officers at Postal Service facilities. Management agreed with
our recommendation and stated that if they continue to use this instrument to assess
security, they will substantiate the methodology used in the Security Force Assessment
Survey. They may also discontinue the use of the survey or use an alternative process.
In either case, the survey instrument will not be the only method used to determine the
continuance or establishment of an armed postal police presence at Postal Service
facilities. Management’s comments and our evaluation of these comments are included
in the report.

The Office of Inspector General (OIG) considers the recommendation significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when a corrective action is completed. This recommendation


   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed. We appreciate the cooperation
and courtesies provided by your staff during the audit. If you have any questions, or
need additional information, please contact Sandra D. Bruce, director, Oversight of
Investigative Activities, at (703) 248-7885 or me at (703) 248-2300.


(John M. Seeba for)

Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology, Marketing, and Oversight

Attachment

cc: Mary Anne Gibbons
    John A. Rapp
    James J. Rowan, Jr.
    Susan M. Duchek
    Joseph K. Moore
Postal Inspection Service’s                                                        SA-AR-04-001
 Postal Police Officers


                                      INTRODUCTION
Background                    The Postal Inspection Service maintains a security force of
                              uniformed postal police officers who are assigned to Postal
                              Service facilities throughout the country. The security force
                              protects Postal Service employees and property by
                              enforcing federal laws and regulations at Postal Service
                              facilities. The Postal Service activated the first unit of
                              security officers during December 1970 in Philadelphia,
                              Pennsylvania. On January 18, 1971, the Postmaster
                              General transferred the administrative and functional
                              responsibility for the security force to the chief postal
                              inspector.

                              Postal police officers provide perimeter security and may
                              escort high-value mail shipments. In addition, postal police
                              officers control access to Postal Service facilities by
                              deterring unauthorized persons from entering. They also
                              patrol parking lots and loading dock areas. Postal police
                              officers carry firearms while performing their duties.

                              Since fiscal year (FY) 2002, the Postal Inspection Service
                              has been conducting an assessment of its uniformed
                              security force positions nationwide. As part of the Postal
                              Inspection Service’s security force transformation initiative,
                              it is evaluating security coverage at facilities to determine
                              the best deployment of resources and redesign the role of
                              postal police officers. The Postal Inspection Service’s initial
                              objective was to limit armed security force coverage to
                              facilities where there is a clear, definable need, and to use
                              automated access control technology where feasible. The
                              Postal Inspection Service management conducted an
                              assessment survey at six security facilities.

                              On June 12, 2003, Postal Service management notified the
                              Fraternal Order of Police, National Labor Counsel, Postal
                              Service Number 2, that they intended to close six security
                              force facilities on September 19, 2003. This notification was
                              in accordance with Article 33 of the 1999 through 2003
                              Collective Bargaining Agreement between the Postal
                              Service and the Fraternal Order of Police, National Labor
                              Counsel, Postal Service Number 2.




                                              1
Postal Inspection Service’s                                                                          SA-AR-04-001
 Postal Police Officers



                                 On September 9, 2003, members of Congress requested
                                 that the Office of Inspector General (OIG) review the Postal
                                 Service’s decision to eliminate the presence of postal police
                                 officers at six Postal Service facilities.

Objective, Scope,                Our audit objective was to review the validity of the
and Methodology                  methodology Postal Inspection Service management used
                                 to support their decision to eliminate the presence of postal
                                 police officers at the six facilities.1 To accomplish our
                                 objective, we interviewed postal inspectors and postal police
                                 officers at the New York, Chicago, St. Louis, and Denver
                                 divisions. We also analyzed security reviews and security
                                 assessments performed by the Postal Inspection Service
                                 and interviewed Postal Inspection Service headquarters
                                 personnel from the Safety and Security group. In addition,
                                 we visited the Buffalo, New York; Hartford, Connecticut;
                                 Denver, Colorado; Seattle, Washington; Jacksonville,
                                 Florida; and Birmingham, Alabama, Processing and
                                 Distribution Centers. We interviewed postal police officers
                                 and Postal Service management and reviewed the current
                                 security at these facilities. We also analyzed the Security
                                 Force Assessment Surveys for each of the six facilities
                                 visited. In addition, we attempted to validate the methods
                                 used to support the Security Force Assessment Survey.

                                 This audit was conducted from July 2003 through April 2004,
                                 in accordance with generally accepted government auditing
                                 standards and included such tests of internal controls, as
                                 were considered necessary under the circumstances. We
                                 reviewed policies and procedures regarding the Postal
                                 Inspection Service security force. We discussed our
                                 conclusions and observations with appropriate management
                                 officials and included their comments, where appropriate.

Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                 objective of this audit.




1
 Buffalo Processing and Distribution Center; Hartford Processing and Distribution Center; Birmingham Processing
and Distribution Center; Jacksonville Processing and Distribution Center; Denver Processing and Distribution Center;
and Seattle Processing and Distribution Center.



                                                       2
Postal Inspection Service’s                                                             SA-AR-04-001
 Postal Police Officers


                                            AUDIT RESULTS
Security Assessment                  The Postal Inspection Service used several methodologies to
Methodologies Need                   support its decision to eliminate postal police officers at the
Improvement                          six facilities in question. These methodologies included studies
                                     and analyses; professional judgment based on interviews with
                                     local police, Postal Service managers, the Postal Inspection
                                     Service, and security force managers; and recommendations
                                     from the most recent Security Force Assessment Survey.
                                     However, these studies and surveys gave contrasting opinions on
                                     whether to maintain a postal police presence at the six facilities.

                                     Specifically, the Hallcrest Security Force Analysis conducted in
                                     1997 recommended that Postal Inspection Service management
                                     maintain postal police officers at all six facilities. The Postal
                                     Inspection Service security review conducted in 2001
                                     recommended a combination of maintaining postal police
                                     officers,2 upgrading physical security,3 and deploying existing
                                     postal police officers to other facilities.4

                                     Further, Postal Inspection Service management stated they held
                                     numerous discussions to determine the best use of their security
                                     force resources. This included interviews with local police, Postal
                                     Service and Postal Inspection Service representatives, and
                                     security force managers. Also, the assignment and complement
                                     size of postal police officer units are at management’s discretion
                                     based on the needs of the Postal Service. On June 12, 2003,
                                     Postal Service management notified the Fraternal Order of
                                     Police, National Labor Counsel, Postal Service Number 2 that
                                     they intended to close security force facilities on September 19,
                                     2003.

                                     This notification was in accordance with Article 33 of the
                                     1999 through 2003 Collective Bargaining Agreement between the
                                     Postal Service and the Fraternal Order of Police, National Labor
                                     Council, Postal Service Number 2, which allows for Postal
                                     Service management’s discretion in this matter.

                                     The closure of the six facilities contributed to reducing the Postal
                                     Inspection Service’s complement size as follows:



2
  Birmingham, Alabama; Hartford, Connecticut; and Jacksonville, Florida.
3
  Buffalo, New York, and Denver, Colorado.
4
  Seattle, Washington.



                                                       3
Postal Inspection Service’s                                                                 SA-AR-04-001
 Postal Police Officers




                                                                                           Number of
                                                                           Number of          Postal
                                                     Location              Managers       Police Officers
                                          •    Seattle, Washington             3                19
                                          •    Birmingham, Alabama             3                 6
                                          •    Hartford, Connecticut           4                13
                                          •    Denver, Colorado                3                12
                                          •    Buffalo, New York               4                14
                                          •    Jacksonville, Florida           2                12
                                                                  Total:      19                76

                                    In addition, Postal Inspection Service management informed us
                                    that the Security Force Assessment Survey was another
                                    component used to determine the best deployment of security
                                    force resources consistent with current organizational challenges.
                                    This survey recommended eliminating postal police officers at all
                                    six facilities.

                                    According to the guidelines in the Inspection Service Manual,5 the
                                    Security Force Assessment Survey6 is the basis for establishing
                                    or maintaining a security force at a Postal Service facility.
                                    Further, use of the Security Force Assessment Survey ensures
                                    the Postal Service obtains maximum benefits for security dollars
                                    and avoids unwarranted expenses.

                                    The survey rates factors such as facility type, location,
                                    complement, service, security, and crime factors. Thus,
                                    according to the Inspection Service Manual,7 a score of
                                    4,900 points on the survey is generally the determining factor for
                                    establishing or continuing a security force. To illustrate, the
                                    Security Force Assessment Surveys conducted from
                                    December 3, 2002, to January 21, 2003, for the six facilities
                                    resulted in the following:

                                           •   Seattle, Washington         3,165 points
                                           •   Birmingham, Alabama         3,642 points
                                           •   Hartford, Connecticut       3,757 points
                                           •   Denver, Colorado            3,961 points
                                           •   Buffalo, New York           4,202 points
                                           •   Jacksonville, Florida       4,910 points

5
  Inspection Service Manual, Section 723.1.
6
  See Appendix A for a sample survey.
7
  Inspection Service Manual, Section 723.31.



                                                     4
Postal Inspection Service’s                                                    SA-AR-04-001
 Postal Police Officers



                              However, Postal Inspection Service management could not
                              provide documentation, such as an independent validation of the
                              model, to explain why a score of 4,900 was the appropriate
                              threshold for discontinuing postal police officers. Further,
                              Inspection Service management had not updated the
                              methodology for the Security Force Assessment Survey in more
                              than 18 years.

                              In addition, Postal Inspection Service management computed the
                              crime factor at a facility by using the Federal Bureau of
                              Investigations Uniform Crime Reports to assign 1 point for every
                              100 crimes committed, with a maximum score of 1,000 points.
                              However, management was not able to provide an explanation
                              for the computation or the 1,000-point cap included in the survey.

                              Postal Inspection Service management told us the Security Force
                              Assessment Survey was a tool they developed and included the
                              items they felt were appropriate in reviewing Postal Service
                              security needs. In addition, Postal Inspection Service
                              management stated they had used the survey in the past and
                              considered its continued use to be fair.

                              Postal Inspection Service management also stated the use of the
                              Security Force Assessment Survey was upheld in a 1998
                              arbitration case in San Diego, California. We reviewed this case
                              and concluded the arbitrator did not make a ruling regarding the
                              use of the Security Force Assessment Survey.

                              Using a survey instrument that can be fully explained, supported,
                              and validated helps ensure the Postal Service fully addresses its
                              security needs in the current environment.

Recommendation                We recommend the chief postal inspector:

                              1. Update, document, and validate the methodology used for
                                 conducting Security Force Assessment Surveys or use an
                                 alternative process that management can validate and
                                 document for use in evaluating the presence of postal police
                                 officers at Postal Service facilities.

Management’s                  Postal Inspection Service management agreed with the
Comments                      recommendation and indicated that they will substantiate the
                              methodology used in the Security Force Assessment Survey if
                              they continue to rely on this instrument to assess Security Force


                                           5
Postal Inspection Service’s                                                      SA-AR-04-001
 Postal Police Officers


                              deployment. Management further indicated that they may
                              discontinue the use of the survey or use an alternative process.
                              In either case, the survey instrument will not be the only method
                              relied upon to determine the continuance or establishment of an
                              armed postal police presence at Postal Service facilities.

                              Conversely, management stated that our report failed to consider
                              Inspection Service executives’ input regarding the methodologies
                              used in the decision making process.

                              Management also commented that our statement acknowledging
                              that several methodologies were used in support of their decision
                              to eliminate armed Security Force officers at six work sites was
                              technically correct. However, it did not consider the time that
                              lapsed since these studies were conducted or the crime
                              prevention countermeasures that have been implemented during
                              the following six years.

                              Management also stated that we failed to comment on the
                              follow-up assessments conducted by the Inspection Service at
                              the affected six worksites. Specifically, interviews with Postal
                              Service management at these locations revealed a positive
                              opinion of both access control technology and the unarmed
                              contract personnel deployed at five of the six work sites impacted
                              by the redeployment of the armed Security Force. Management’s
                              comments, in their entirety, are included in Appendix B of this
                              report.

Evaluation of                 Postal Inspection Service management’s comments were
Management’s                  responsive to the recommendation. Further, management’s
Comments                      actions taken or planned are responsive to the recommendation
                              and should correct the issue identified in the finding.

                              However, we express concern that management indicated that
                              we did not obtain or consider pertinent information while reporting
                              the results of this audit. Specifically, they stated that appropriate
                              Inspection Service executives were not included as part of the
                              audit. We interviewed key members of management, including
                              executives, regarding the use and validity of the Security Force
                              Survey. Management indicated that they did not know when the
                              survey was originally used or how it was validated. We also
                              interviewed key executives on how the decision to eliminate
                              postal police officers was made. Management informed us that
                              the decision was at management’s discretion and was made at a
                              leadership team meeting where no notes were taken.



                                            6
Postal Inspection Service’s                                                    SA-AR-04-001
 Postal Police Officers



                              In addition, we reviewed the follow-up assessments conducted by
                              the Inspection Service at the six worksites and determined the
                              assessments provided the same conclusion as the initial survey
                              results. However, these findings do not eliminate the need for
                              management to have a validated and documented process for
                              evaluating the presence of postal police officers at Postal Service
                              facilities.




                                            7
APPENDIX A. FACILITY LOCATION WORKSHEET


             APPENDIX A. Withheld
Postal Inspection Service’s                            SA-AR-04-001
 Postal Police Officers


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                 17
Postal Inspection Service’s        SA-AR-04-001
 Postal Police Officers




                              18
